                              Closeout for M99080042

        On July 22, 1999, the Office of Inspector General learned of a possible conflict of
interests (COI) involving an employee1of another federal agency (the subject) serving as
part of the management team conducting a panel review of an interagency project2
partially funded by NSF. The federal agency that employed the subject did not provide
hnding to the interagency project. The subject was serving on the management team
because of his employment at the other federal agency but could not cast a vote on the
panel review.

        After a standard request by the program manager3 for all panel members and
management team members to disclose any possible COI, the subject did not disclose a
past academic relationship with a Principal Investigator PI)^ who submitted a proposal5
to this panel. At the panel review, the subject advocated this PI'S proposal and criticized
competing proposals. After learning of the possible COI, the program manager sent all
proposals from this panel review to a second panel which did not contain any members of
the original panel. The second panel essentially confirmed the final scores of the original
panel.
                                                                                              4


        After consulting with NSF's Office of General Counsel and considering the
applicable COI regulations, our office concluded the subject's advocacy of the PI'S
proposal could have been considered inappropriate according to NSF COI regulations, if
the subject were an NSF employee, but were not addressed in the other agency's COI
regulations. The Office of Inspector General cautioned the program manager to
recognize that different federal agencies may be subject to different COI regulations. In
the future, the program manager should consider addressing this issue in interagency
panels. This case is closed.




"   [footnote redacted]
    [footnote redacted]
    [footnote redacted]
4
    [footnote redacted]
    [footnote redacted]


                                     Page 1 of 1
